TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                    Inspection of the Submission Processing
                          Centers’ Mailroom Screening
                       Procedures for Hazardous Material



                                       December 13, 2013

                             Reference Number: 2014-IE-R004




         This report has cleared the Treasury Inspector General for Tax Administration disclosure
           review process and information determined to be restricted from public release has
                                    been redacted from this document.

 Redaction Legend:
 2f=Law Enforcement risk circumvention of Agency statute




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                  DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          December 13, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – Inspection of the Submission Processing
                             Centers’ Mailroom Screening Procedures for Hazardous Material
                             (# IE-13-009)

 This report presents the results of our inspection to determine whether policies, procedures, and
 guidance in place to detect and minimize the effects of explosives, hazardous material, and other
 suspicious mail submitted to the Internal Revenue Service’s (IRS) submission processing centers
 (centers) are sufficient and effective.

 Synopsis
 The Director, Physical Security and Emergency Preparedness (PSEP), within the IRS’s
 Agency-Wide Shared Services (AWSS), is responsible for providing comprehensive IRS-wide
 physical security and emergency preparedness programs to protect IRS employees, facilities,
 operations, and information in support of the IRS mission and tax administration. The Director,
 PSEP, is also charged with informing, educating, assisting, and coordinating preparedness and
 response activities.
 In general, the two IRS centers inspected during this review have controls in place to detect and
 minimize the effects of explosive and hazardous material submitted via mailrooms; however,
 additional controls should be considered to improve procedures and ensure effective screening
 measures are available throughout the year. We found that procedures were generally consistent
 and effective in identifying, reporting, and responding to suspicious packages and unknown
 substances.
 The centers each have an Explosive Detection Dog Program in place that the centers use to
 screen suspicious mail and packages for explosives ****** *** *2f*** ****** ****; however,
                           Inspection of the Submission Processing Centers’
                         Mailroom Screening Procedures for Hazardous Material



the Internal Revenue Manual1 does not specify whether the Explosive Detection Dog Program be
available all year long. We also found that while both centers had x-ray machines, **** *** ***
*** *** ******** ** **** *** ******** **** *** ******** *** ******* **** *****
******** ** **** ********** **** ******** ********** ** ***2f*. ** **** ******** **
*** ********* **** ******** ***** ***** ** **** ********* ***** ** **************
*** ****** *********** ****** ** ********** ****.
For the facilities included in our inspection, the IRS followed proper procedures for reporting
suspicious packages or unknown substances to PSEP personnel, and local enforcement and
emergency authorities were notified and responded accordingly. We also found that IRS
personnel receive annual safety training that encompasses several safety topics, which includes
identifying and responding to potential hazardous material and suspicious mail and packages.
We found that the centers were inconsistent with regard to displaying signs in and around
loading docks and mailrooms to increase hazardous material awareness and reminding
employees of incident reporting procedures. We also found that one location, * ********
**2f****** ******, received its mail directly from the U.S. Postal Service and small package
carriers,2 which directly contradicted the PSEP office’s findings in that facility’s security risk
assessment. According to the risk assessment, the center receives, screens, and then forwards the
mail to the post of duty. The post of duty does not have an Explosive Detection Dog Program or
an x-ray machine available to screen parcels. Additionally, the mailroom within the post of duty
shares the facility’s heating, ventilation, and air-conditioning system, which would further
complicate response and containment efforts if an actual hazardous material incident were to
occur.

Recommendations
We recommended that the Chief, AWSS, implement IRS-wide regulations for minimum mail
screening requirements to ensure policies and supplemental screening procedures are available
throughout the year. We also recommended that the Chief, AWSS, supplement hazardous
material awareness, incident reporting, and training programs by hanging posters and other signs
in and around IRS mail receiving and processing areas reminding personnel of hazardous
material threats and known identifiers.
Lastly, we recommended that the Chief, AWSS, (1) verify whether IRS posts of duty receive
their mail via contract couriers from larger IRS facilities or directly from the U.S. Postal Service
and small package carriers, (2) ensure that procedures are in place to increase awareness and
readily identify explosives, hazardous material, and suspicious mail that can be delivered directly

1
  The Internal Revenue Manual is the IRS’s primary official source of instructions to staff relating to the
administration and operations of the IRS. It contains the directions employees need to carry out their operational
responsibilities.
2
  Small package carriers are United Parcel Service Inc., FedEx Corp., and like companies.
                                                                                                                     2
                       Inspection of the Submission Processing Centers’
                     Mailroom Screening Procedures for Hazardous Material



to these facilities, and (3) take corrective actions to mitigate risks posed by stand-alone
mailrooms, in IRS posts of duty, that are connected to the building’s heating, ventilation, and
air-conditioning system.

Response
IRS management agreed with the recommendations in our report. The IRS plans to implement
regulations for minimum mail screening requirements based on facility security level and plans
to increase employee hazardous material awareness, incident reporting, and training programs by
hanging posters and other signs in and around IRS mail receiving and processing areas.
Additionally, the IRS plans to recertify whether IRS posts of duty receive their mail via contract
couriers, the U.S. Postal Service, or small package carriers. Following this recertification, the
IRS plans to ensure that procedures are in place to increase awareness and readily identify
explosives, hazardous material, and suspicious mail that can be delivered directly to these
facilities. Lastly, the IRS plans to mitigate risks posed by stand-alone mailrooms that are
connected to a building’s heating, ventilation, and air-conditioning system. Management’s
complete response to the memorandum is included in Appendix V.
Please contact me at (202) 927-7048 if you have questions or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                  3
                               Inspection of the Submission Processing Centers’
                             Mailroom Screening Procedures for Hazardous Material




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Additional Controls Should Be Implemented to
          Mitigate Risks ............................................................................................... Page 3
                    Recommendations 1 and 2: ................................................ Page 6

          Mail Delivery Variations May Result in Less Effective
          or No Mail Screening .................................................................................... Page 8
                    Recommendation 3:.......................................................... Page 9

                    Recommendations 4 through 5:......................................... Page 10



Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Internal Revenue Service Posts of Duty Inspected .............. Page 15
          Appendix V – Management’s Response to the Draft Report ....................... Page 16
           Inspection of the Submission Processing Centers’
         Mailroom Screening Procedures for Hazardous Material




                    Abbreviations

AWSS          Agency-Wide Shared Services
EDDP          Explosive Detector Dog Program
HAZMAT        Hazardous Material
HVAC          Heating, Ventilation, and Air Conditioning
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
ISC           Interagency Security Committee
PSEP          Office of Physical Security and Emergency Preparedness
SAMC          Situation Awareness Management Center
TIGTA         Treasury Inspector General for Tax Administration
USPS          United States Postal Service
                            Inspection of the Submission Processing Centers’
                          Mailroom Screening Procedures for Hazardous Material




                                              Background

Tax administration is of vital importance to the economy of the United States, and the
deliverance and receipt of mail and packages provide a crucial means for the exchange of tax and
other financial information between the Internal Revenue Service (IRS) and taxpayers.
Mailroom screening and handling processes must be able to identify threats and hoaxes to
eliminate or mitigate the risk they pose to the IRS, its employees, and daily operations.
According to the Interagency Security Committee’s1 (ISC) report, Best Practices for Mail
Screening and Handling Processes: A Guide for the Public and Private Sectors, a wide range of
chemical, biological, radiological, nuclear, or explosive potential threats can be introduced into
an organization by way of the mail center. These threats can be both dangerous and disruptive.2
The Director, Physical Security and Emergency Preparedness (PSEP), within the IRS’s
Agency-Wide Shared Services (AWSS), is responsible for providing comprehensive IRS-wide
physical security and emergency preparedness programs to protect IRS employees, facilities,
operations, and information in support of the IRS mission and tax administration. The Director
is also charged with informing, educating, assisting, and coordinating preparedness and response
activities.
Per Internal Revenue Manual (IRM)3 10.2.8, Physical Security Incident Reporting, in order to
provide adequate response measures, it is necessary to develop sound incident reporting
procedures that will ensure an immediate and effective response to physical incidents and “… all
significant, unusual, and potential incidents or situations affecting or which may affect the
operations of the IRS will be reported as quickly as possible to the Situation Awareness
Management Center (SAMC) and PSEP Staff.” Local incident reporting procedures shall be
developed at all IRS facilities for notification of appropriate authorities for response (i.e., Federal
Protective Service, local enforcement and emergency authorities, IRS Criminal Investigation,
Treasury Inspector General for Tax Administration (TIGTA) Office of Investigations, etc.). At a
minimum, incidents and emergencies that shall be reported include any situation or condition in
or around an IRS facility that could deny access, cause harm to employees, or damage IRS
facilities and property. IRM 10.2.8.7 lists several types of incidents that should be reported to


1
  The ISC was established by Exec. Order No. 12977, 60 Fed. Reg. 54,411 (Oct. 1995), to enhance the quality and
effectiveness of security in and protection of buildings and nonmilitary Federal facilities in the United States—
whether owned, leased, or managed by the Government.
2
  U.S. Department of Homeland Security, ISC, Best Practices for Mail Screening and Handling Processes: A Guide
for the Public and Private Sectors (Sept. 2012). This report is a guide designed to provide a framework for
understanding and mitigating risks posed to an organization by the mail and packages it receives and delivers.
3
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
                                                                                                               Page 1
                       Inspection of the Submission Processing Centers’
                     Mailroom Screening Procedures for Hazardous Material



the SAMC. Incident reporting serves as a reactive measure to identifying and managing
incidents or situations affecting or which may affect the operations of the IRS.
The IRS uses contract explosive detector dog teams at IRS facility access points in order to
proactively identify and respond to potential explosive threats; however, these contract services
are not available at all IRS facilities. Per IRM 10.2.12, Security Guard and Explosive Detector
Dog Services and Programs, the primary mission of the Explosive Detector Dog Program
(EDDP) is to provide explosive detection services at IRS facilities by inspecting unsolicited
high-risk mail and packages arriving at facilities. Its secondary mission is to inspect all other
mail as well as conduct other routine inspections as time and availability permits. The secondary
inspections can be accomplished between mail deliveries at vehicle entry points and in parking
lots, trash bins, bushes, and/or interior/exterior common areas. Local policy and procedures will
dictate the scope, locations, and specific post orders for secondary inspections.
This review was performed at the IRS submission processing centers (centers) and selected posts
of duty and offices in Austin, Texas, and Fresno, California, in the Office of PSEP and the
Office of Real Estate and Facilities Management during the period June through July 2013. The
posts of duty inspected are listed in Appendix III. We conducted this inspection in accordance
with the Council of the Inspectors General for Integrity and Efficiency Quality Standards for
Inspections. Detailed information on our objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 2
                          Inspection of the Submission Processing Centers’
                        Mailroom Screening Procedures for Hazardous Material




                                    Results of Review

IRS submission processing centers and other facilities inspected during our review generally
have controls in place to detect and minimize the effects of explosive and hazardous material
(HAZMAT) submitted via mailrooms; however, additional controls should be considered to
improve procedures and ensure effective screening measures are available throughout the year.
The lack of controls in some areas may prevent the IRS from effectively and timely identifying
explosives or HAZMAT entering IRS buildings and offices, resulting in possible disruptions to
IRS operations, harm to IRS employees or visitors, or damage to IRS buildings.
Additional Controls Should Be Implemented to Mitigate Risks
We observed the receipt of mail and packages at two IRS centers located in Austin, Texas, and
Fresno, California. Overall, we found that procedures were generally consistent and effective in
identifying, reporting, and responding to suspicious packages and unknown substances; however,
controls in some areas could be strengthened. In general, both centers received mail via loading
docks colocated with the building’s shipping and receiving area and Extraction department.
These loading docks either restricted access to unauthorized persons or were located in a manner
as to isolate the loading dock and reduce employee foot traffic. There is no requirement that
mail and package processing areas have procedures in place to restrict access to only authorized
persons. Also, where mail operations are not in a separate off-site location, the ISC’s Best
Practices for Mail Screening and Handling Processes states, “[… isolated on-campus] facilities
significantly reduce the ability of a suspicious mail piece or package to disrupt organization
operations for extended periods of time.”4 The only exception to the procedures for receipt of
mail was during peak season, when there is an abundance of incoming mail; one center has mail
delivered to an off-site warehouse because the warehouse’s larger loading dock can
accommodate the amount of mail delivered.
Measures for screening mail and packages are adequate but require additional
controls to mitigate risks
We found that the centers each have an EDDP that screens suspicious mail and packages for
explosives ****** *** **** *****2f******** ****** *****. Per the IRM, the primary
mission of the EDDP is to provide explosive detection services by inspecting unsolicited
high-risk mail and packages arriving at IRS facilities* ******** *** *** **** *** ******* ***
**** ** *********2f** ****.5 ******* ** ********* *** **** *** **** **** may increase



4
  U.S. Department of Homeland Security, ISC, Best Practices for Mail Screening and Handling Processes: A Guide
for the Public and Private Sectors, p.17 (Sept. 2012).
5
  IRM 10.2.12.9 (Oct. 21, 2008).
                                                                                                      Page 3
                          Inspection of the Submission Processing Centers’
                        Mailroom Screening Procedures for Hazardous Material



the risk that mail, packages, and vehicles, possibly containing explosives and other HAZMAT,
may enter IRS facilities without being detected.
According to the IRM, every IRS office, regardless of staffing, requires equipment for mailing
and shipping letters and packages,6 but we found no requirement that IRS offices and mailrooms
require equipment for screening mail and packages for possible explosives and HAZMAT. Per
the ISC security criteria to establish baseline levels of protection, IRS centers should screen all
mail and packages using an x-ray machine in a dedicated mail receiving area and, where
deliveries cannot physically pass through an x-ray machine, mail and packages should be
physically inspected.7 We found that while both centers had x-ray machines* *** *** *** ***
*** ******** ** **** *** ******** *** ******** *** ******* **** ***** ******** **
**** ********** **** ******* ********** ** ******* ** *** ******** ** *** *********
**** ******** ***** ***** ** **** ********* ***** ** *******2f***** *** *****
*********** ****** ** ********** ***** ** ***** ******* ** *** ****** ******* ** **
**** ************* ** *** ***** ******* *** ********* ** * **** ******** ** ***
******* **** *** *** ******* ** ******* ***** ****** ** ********. Since both centers
utilize an EDDP during *** **** ******* ****2f******* ***** ****** as an additional
screening measure, the IRS should ensure x-ray machines are colocated with the mail receiving
area and are without obstruction, functioning, and available for use at any time.
After receipt, all mail and packages are separated, physically inspected, and opened by IRS
Receipt and Control personnel. While not a requirement, employees inspecting and opening
mail can choose to wear plastic gloves to protect themselves from any possible contamination
from a discovered unknown substance.
We conducted physical inspections of the centers’ loading docks and mailrooms to determine
whether they displayed signs in and around loading docks and mailrooms to increase HAZMAT
awareness and remind employees of incident reporting procedures. We found that the centers
were not consistent. One center had no signs in and around its mail receiving and processing
areas; the other center had signs hung up in its mailroom and did hang additional signs in the
loading dock area after the deficiency was noted during our review. There is no requirement that
Federal facilities display signs and posters to increase awareness of suspicious mail; however,
displaying a sign similar to United States Postal Service (USPS) Poster 84, Suspicious Mail or
Packages, could help remind employees of what to look for with regard to a suspicious letter or
package.




6
 IRM 1.22.8.1 (Aug. 3, 2012).
7
 U.S. Department of Homeland Security, ISC, Physical Security Criteria for Federal Facilities: An Interagency
Security Committee Standard (April 2010) (for Official Use Only).
                                                                                                        Page 4
         Inspection of the Submission Processing Centers’
       Mailroom Screening Procedures for Hazardous Material



Figure 1: Suspicious Mail or Packages, USPS Poster No. 84




Source: USPS.




                                                              Page 5
                             Inspection of the Submission Processing Centers’
                           Mailroom Screening Procedures for Hazardous Material



Recommendations
The Chief, AWSS, should:
Recommendation 1: Implement IRS-wide regulations for minimum mail screening
requirements to ensure policies and screening procedures are available throughout the year.
           Management’s Response: IRS management agreed with this recommendation.
           The Chief, AWSS, plans to develop and issue a memorandum to all IRS employees and
           contractors involved in handling mail that will outline the screening requirements for
           their designated Facility Security Level. The IRS also plans to provide the ISC standards
           to mailroom personnel in facilities designated as Facility Security Level I and II.
Recommendation 2: Consider hanging posters and other signs in and around IRS mail
receiving and processing areas to help increase awareness of HAZMAT and remind employees
of incident reporting procedures.
           Management’s Response: IRS management agreed with this recommendation.
           The Chief, AWSS, plans to ensure that HAZMAT signs and posters on proper mail
           handling are posted throughout all IRS mail receiving and processing areas.
           Additionally, the IRS will develop and issue a memorandum to mailroom personnel as a
           reminder of the guidance available on the handling of suspicious packages and proper
           incident reporting procedures.
Incident reporting and response procedures are effective
The Director, PSEP, is responsible for providing comprehensive IRS-wide physical security and
emergency preparedness programs to protect IRS employees, facilities, operations, and
information in support of the IRS mission and tax administration. As such, the PSEP office is
required to provide managers and designated officials with a listing of officials and phone
numbers to report incidents at their location.8 We found that local PSEP territory managers
instruct managers to contact the centers’ Central Security Control Consoles (CSCC) to report
suspicious packages and possible HAZMAT incidents where IRS employees cannot identify the
substance as nonhazardous. In both locations, the CSCC was provided a current listing of
enforcement and emergency authorities to contact in the event a suspicious package or unknown
substance is discovered in and around the IRS’s facilities. Although a slight deviation from the
requirement in the IRM, this process reduces the need to continually provide numerous IRS
managers and officials with a current listing of enforcement and emergency authorities to
contact, and instead managers need only contact the center’s CSCC, which reports directly to
PSEP officials, to initiate HAZMAT response procedures.



8
    IRM 10.2.8.5 (Sept. 30, 2008).
                                                                                             Page 6
                          Inspection of the Submission Processing Centers’
                        Mailroom Screening Procedures for Hazardous Material



Incident reporting serves as a reactive measure to identifying, managing, and responding to
incidents or situations affecting or which may affect the operations of the IRS by way of denying
access to facilities, causing harm to employees, or damaging IRS facilities and property. Per the
IRM, “… all significant, unusual, and potential incidents or situations affecting or which may
affect the operations of the IRS will be reported as quickly as possible to the SAMC and PSEP
Staff.”9 Also, per the IRM, local incident reporting procedures will be established at all IRS
facilities for notification of appropriate authorities for response (i.e., Federal Protective Service,
local enforcement and emergency authorities, IRS Criminal Investigation, TIGTA Office of
Investigations, etc.).10 IRM 10.2.8.7 lists several types of incidents that should be reported to the
SAMC. HAZMAT, bomb threats, suspicious packages, and threats against IRS employees are
just some of the incidents that are listed.
Our office reviewed incident reports that were reported to the SAMC during the period
January 2012 through June 2013 for the two centers and six other IRS posts of duty in the
surrounding area (three additional posts of duty per center location). We found that during this
time period, seven incidents related to potential HAZMAT and suspicious packages were
reported. In six of seven reported incidents, the package or unknown substance was found to be
nonhazardous. One incident was not centralized in the mailroom, and dealt with a vagrant
leaving behind a personal item (a backpack). In this case, the vagrant returned and retrieved the
backpack; per the SAMC report, TIGTA officials were on site and the PSEP office was notified.
According to information obtained from the SAMC, all incidents were reported in accordance
with IRS procedures for reporting the suspicious package or unknown substance to PSEP
personnel and the appropriate local enforcement and emergency authorities were notified and
responded.
Personnel receive training on identifying and handling suspicious mail
ISC standards require all personnel who receive and process mail to receive, at a minimum,
annual training on identifying and handling suspicious mail and packages.11 We found that IRS
permanent and seasonal employees receive annual safety training that encompasses several
safety topics, to include identifying and responding to potential HAZMAT and suspicious mail
and packages.
At one center, we found that local PSEP officials staged three mock HAZMAT response drills
where IRS employees, local enforcement and emergency authorities, and TIGTA investigators
all participated. Only key personnel were aware the drill was staged. This allowed IRS
managers at the location to gauge how well IRS employees were familiar with incident reporting
and responding to HAZMAT incidents. The mock drills captured events from the opening of a


9
  IRM 10.2.8.5 (Sept. 30, 2008).
10
   IRM 10.2.8.6 (Sept. 30, 2008).
11
   ISC report, Best Practices for Mail Screening and Handling Processes: A Guide for the Public and Private
Sectors (2012), p.34.
                                                                                                         Page 7
                             Inspection of the Submission Processing Centers’
                           Mailroom Screening Procedures for Hazardous Material



letter with an unknown substance through to emergency personnel donning protective HAZMAT
suits, setting up decontamination tents, and having “infected” employees take simulated
decontamination showers.
Mail Delivery Variations May Result in Less Effective or No Mail
Screening
The procedures and controls in place for identifying, reporting, and responding to HAZMAT
incidents at the centers were our main focus; however, during the course of this inspection we
identified an IRS post of duty that had inadequate procedures and controls in this area. Our
initial inspection plans did not include inspecting these processes at the surrounding IRS posts of
duty because IRS security risk assessments, prepared by the PSEP office, stated that posts of
duty in the vicinity of the centers received their mail and packages via an IRS contract courier
service after the centers received and inspected the mail. However, we found that one location*
* ******** **2f****** ******* received its mail directly from the USPS and small package
carriers.12 Further, the facility does not have procedures or equipment in place to inspect
incoming packages for the possible presence of explosive material, e.g., the facility does not
have an EDDP or an x-ray machine available to screen parcels. Our observations contradict
some of the information contained in the PSEP office’s most recent risk assessment of this
facility.
Additionally, there were no posters or signs in the mailroom that could remind IRS employees to
be cognizant of suspicious mail and packages. There is a small poster titled Mail Handling
Procedures/Suspicious Substances that outlines who the IRS employees should contact and what
they should do if a suspicious package is received or unknown substance is discovered; however,
the poster is barely visible because it has been placed against the wall, underneath a wall cabinet,
with a large piece of mailroom equipment in front of it (see Figure 2).




12
     Small package carriers are United Parcel Service Inc., FedEx Corp., and like companies.
                                                                                               Page 8
                           Inspection of the Submission Processing Centers’
                         Mailroom Screening Procedures for Hazardous Material



              Figure 2: IRS Post of Duty Mail Handling Procedures Blocked




     Source: TIGTA Hazardous Materials Screening Inspection.

We also found that the mailroom shared the facilities’ heating, ventilation, and air-conditioning
(HVAC) system with other offices, which would further complicate response and containment
efforts if an actual biological or chemical HAZMAT incident were to occur. The
aforementioned poster outlining handling and reporting procedures informs the discovering
employee to turn off the HVAC system by pressing the on/off button; however, there is no such
button present inside the room. The ISC considers a separate HVAC system a best practice for
this type of mailroom; however, a separate ISC standard identifies the baseline level of
protection for this facility’s determined security level would not require any special measures to
mitigate risks posed from biological and chemical agents to the HVAC.13
During a review of SAMC incident reports for the period January 2012 through June 2013 for
this facility, we found that only one mailroom incident had been reported to the SAMC. The
material in this incident was found to be nonhazardous.
Recommendations
The Chief, AWSS, should:
Recommendation 3: Verify whether or not IRS posts of duty receive their mail via contract
courier from larger IRS facilities or directly from the USPS and small package carriers.



13
  U.S. Department of Homeland Security, ISC, Best Practices for Mail Screening and Handling Processes:
A Guide for the Public and Private Sectors (Sept. 2012), and Physical Security Criteria for Federal Facilities:
An Interagency Security Committee Standard (April 2010) (for Official Use Only).
                                                                                                             Page 9
                           Inspection of the Submission Processing Centers’
                         Mailroom Screening Procedures for Hazardous Material



         Management’s Response: IRS management agreed with this recommendation.
         The Chief, AWSS, noted that the IRS had previously verified whether IRS centers and
         field offices nationwide received mail deliveries via courier services or directly from the
         USPS or small package carriers. The IRS plans to recertify and document mail delivery
         methods for each location.
Recommendation 4: Ensure procedures are in place to increase awareness and readily
identify explosives, HAZMAT, and suspicious mail that can be delivered directly to these
facilities.
         Management’s Response: IRS management agreed with this recommendation.
         The Chief, AWSS, plans to update the IRM to include language for the handling of
         suspicious mail and packages, identification of explosives, and incident reporting
         instructions. Additionally, the Chief plans to reissue Document 12552, Physical Security
         and Emergency Preparedness Guide, which includes guidance on handling HAZMAT,
         suspicious packages, and explosives and on incident reporting procedures to all mailroom
         employees. Lastly, to educate IRS employees, the PSEP office plans to publish articles
         on the IRS intranet regarding the proper procedures for handling suspicious mail and
         packages, including how to report these incidents.
Recommendation 5: Verify whether or not the mailrooms are connected to the building’s
HVAC system and, considering the building’s Facility Security Level,14 consider corrective
action to mitigate such risks.
         Management’s Response: IRS management agreed with this recommendation.
         The Chief, AWSS, plans to identify those facilities connected to the building’s HVAC
         system and develop corrective actions to mitigate sites needing separate mailroom HVAC
         systems.




14
  According to the ISC, Facility Security Level is a categorization, based on several security-related factors. This
level then serves as the basis for the implementation of certain security measures specified by the ISC.
                                                                                                             Page 10
                             Inspection of the Submission Processing Centers’
                           Mailroom Screening Procedures for Hazardous Material



                                                                                              Appendix I

            Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether policies, procedures, and guidance in
place to detect and minimize the effects of explosive and other HAZMAT and suspicious mail
submitted to IRS processing centers are sufficient and effective. To accomplish our objective,
we:
I.         Documented the policies, procedures, practices, and training in place for handling
           HAZMAT and incident reporting at selected IRS facilities.
           A. Interviewed PSEP employees.
           B. Reviewed IRS security risk assessments for selected IRS facilities to identify
              countermeasures related to the mailroom, and determined whether mail is screened at
              the loading dock for explosives and suspicious packages.
           C. Determined whether policies on suspicious mail and substances are incorporated into
              emergency planning documents.
           D. Determined whether relevant, periodic training is provided to employees.
           E. Determined if the IRS has a HAZMAT awareness program.
II.        Interviewed employees working in the mailrooms at selected locations to assess the
           policies, procedures, and practices in place for detecting and reporting potential
           HAZMAT received at selected IRS facilities and mailrooms.
           A. Determined whether a current checklist for actions to take in the event of the possible
              discovery of HAZMAT, suspicious mail, or unknown substances has been provided
              by the PSEP.
           B. Determined whether employees are required to demonstrate their understanding of
              HAZMAT response procedures.
III.       Observed mailroom receipt and inspection of mail delivered by the USPS and small
           package carrier1 services.
           A. Determined whether access to the mailroom and loading dock is restricted.
           B. Determined whether mail is screened for explosives and suspicious packages on the
              loading dock.

1
    Small package carriers are United Parcel Service Inc., FedEx Corp., and like companies.
                                                                                                  Page 11
                           Inspection of the Submission Processing Centers’
                         Mailroom Screening Procedures for Hazardous Material



         C. Identified whether posters or other relevant material that provide adequate guidance
            for detecting and reporting HAZMAT are displayed in the mailroom.
IV.      Determined whether any HAZMAT incidents at the inspected sites have been reported to
         the SAMC in the last two calendar years.2




2
  The SAMC is tasked with promptly reporting all significant physical security incidents and emergencies as well as
incidents that result in the need to respond to inquiries from the Department of the Treasury or the news media. This
is important because they must be kept apprised of situations that could require their immediate assistance and/or
attention along with that of the Commissioner; Chief, AWSS; Director, PSEP; and/or other IRS Executives.
                                                                                                           Page 12
                      Inspection of the Submission Processing Centers’
                    Mailroom Screening Procedures for Hazardous Material



                                                                 Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections & Evaluations
James A. Douglas, Supervisory Evaluator
John L. da Cruz, Lead Program Analyst
Dolores M. Castoro, Senior Auditor




                                                                       Page 13
                     Inspection of the Submission Processing Centers’
                   Mailroom Screening Procedures for Hazardous Material



                                                                   Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Commissioner, Wage and Investment Division SE:W
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Commissioner, Wage and Investment Division SE:W




                                                                         Page 14
                      Inspection of the Submission Processing Centers’
                    Mailroom Screening Procedures for Hazardous Material



                                                                    Appendix IV

   Internal Revenue Service Posts of Duty Inspected

******* ******** *** **2f** ******* **********
Fresno Submission Processing Center (CA 4664), Fresno, California
Austin Submission Processing Center (TX 2038), Austin, Texas




                                                                         Page 15
        Inspection of the Submission Processing Centers’
      Mailroom Screening Procedures for Hazardous Material



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 16
  Inspection of the Submission Processing Centers’
Mailroom Screening Procedures for Hazardous Material




                                                   Page 17
  Inspection of the Submission Processing Centers’
Mailroom Screening Procedures for Hazardous Material




                                                   Page 18
  Inspection of the Submission Processing Centers’
Mailroom Screening Procedures for Hazardous Material




                                                   Page 19
